                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A04100059                                                                      Page 1 of 1



         We received an allegation1that the subject's2 NSF-funded research3resulted, in part, in the
         publication4of materials5 that included falsified and manipulated data.6 We reviewed
         information related to the publications and the data.7 We found no evidence of data falsification
         or manipulation. The focus of this case involved a very controversial theory that included
         considerable disagreement within the community about the interpretation of the data. A
         disagreement over the interpretation of data is not research misconduct.

         This case is closed and no M e r action will be taken.




NSF OIG Form 2 (1 1/02)
